CERTIFICATE OF SERVICE
20-A90
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN HILLS, AGUDATH
ISRAEL OF MADISON, RABBI YISROEL REISMAN, AND STEVEN SAPHIRSTEIN,
Applicants,
v.
ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF NEW YORK,
Respondent.
I, Gordon D. Todd, do hereby certify that, on this twentieth day of November,
2020, I caused a copy and an electronic copy of the Motion for Leave to File and
Brief of Amicus Curiae the Roman Catholic Archdiocese of Saint Paul and
Minneapolis, the Roman Catholic Diocese of Madison, Samuel A. Fryer Yavneh
Academy, Montebello Christian School, and Saint Joseph Academy in Support of
Applicants in the foregoing case to be served by first class mail, postage prepaid,
and by email, on the following parties:
AVI DAVID SCHICK
Troutman Pepper Hamilton Sanders
LLP
875 Third Avenue
New York, NY 10022
(212) 704-6126
avi.schick@troutman.com
Counsel for Applicants

BARBARA DALE UNDERWOOD
Solicitor General
ANDREA OSER
Deputy Solicitor General
Office of the New York State Attorney
General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov
Andrea.Oser@ag.ny.gov
Counsel for Respondent
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

